                                                          Office of Inspector General
                                                      Atlanta Field Office - Audit Division
                                                           3003 Chamblee Tucker Rd
                                                               Atlanta. GA 30341




                                                February 06,2004



To:                                     Joseph F. Picciano
                                        Acting Regional Director, FEMA Region I1

FROM:
                                        Field Office Director

SUBJECT:                                Virgin Islands Department of Public Works
                                        FEMA Disaster No. 1126-DR-VI
                                        Audit Report No. DA- 13-04


The Office of Inspector General (OIG) audited public assistance funds awarded to the
Virgin Islands (V.I.) Department of Public Works (DPW). The objective of the audit
was to determine whether DPW and other V.I. Government entities accounted for and
expended FEMA funds according to federal regulations and FEMA guidelines.

The DPW received an award of $2.4 million from the V.I. Office of Management and
Budget (OMB), a FEMA grantee, for debris removal, emergency protective measures and
repairs to buildings damaged as a result of Hurricane Bertha in July 1996. The award
provided 90 percent FEMA funding for 4 large projects and 14 small projects.' We
limited our audit to the $2.4 million awarded and the $3 million claimed under the 4 large
projects. (See Exhibit). The audit covered the period July 1996 to September 2003.

The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit
included tests of the V.I. Government's accounting records, a judgmental sample of
expenditures, and other auditing procedures considered necessary under the
circumstances.


 Notice: This report remains the property of the DHS Office of Inspector General (DHS-OIG) at all times and, as such, is not
 to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies of this report should be
 immediately forwarded to the DHS Office of Counsel to the Inspector General to ensure strict compliance with all applicable
 disclosure laws.                                                                                                            -

 I According to =MA regulations, a large project cost $44,800 or more and a small project cost less than
 $44,800.
                                  RESULTS OF AUDIT 


The V.I. Government did not maintain accurate records on the receipt of program funds.
Also, DPW claimed questioned costs of $814,462 (FEMA share - $733,016) resulting
from poor contracting and cost control practices, and unsupported and duplicate charges.

A. Grant Accounting. Federal regulation (44 CFR 13.20) requires subgrantees to
   maintain accurate, current, and complete accounting records on federal grant
   programs. However, the V.I. Government's records on the receipt of funds for DPW
   were understated by $1,641,7 10 due to accounting errors and a lack of reconciliation.

    The V.I. Department of Finance was responsible for maintaining the official
    accounting records of the V.I. Government and accounting for the receipt and
    expenditure of all federal grant funds. To account for FEMA funds under Disaster
    1126, the Department of Finance established a separate DPW account for receipts and
    expenditures.

    The OMB, on the other hand, was responsible for withdrawing FEMA program funds
    from the U.S. Treasury and reporting such withdrawals to the Department of Finance.
    Additionally, both OMB and the Department of Finance were responsible for
    coordinating their efforts and reconciling their accounts. The OIG determined that
    this was not done. OMB failed to report withdrawals accurately and the Department
    of Finance failed to maintain accurate records on the receipt of funds for the DPW.

    OMB records showed that the V.I. Government requested and received $1,93 1,818
    under Disaster 1126 for DPW. However, OMB submitted reports to the Department
    of Finance reporting only $590,686. OMB erroneously reported the difference of
    $1,341,132 under the DPW account established for Disaster 1067.

    The OIG also found that the Department of Finance posted receipts of only $290,108
    under the DPW account for Disaster 1126. The difference of $1,641,710 was
    incorrectly posted to the Police Department and DPW account established for
    Disaster 1067.

 B. Poor Contracting and Cost Control Practices. Federal regulation (44 CFR 13.36)
    requires subgrantees to maintain records sufficient to detail the significant history of
    procurements, including the rationale for the method of such procurements and the
    basis for contractor selection and contract price.

     The DPW did not comply with these requirements. DPW entered into 34 verbal
     contracts for debris removal work on St. Thomas and St. John and paid the
     contractors $1,327,740. This amounted to $684,75 1 in excess of the FEMA approved
     award amount of $642,989. However, all such contracts were verbal, without
     documentation of the contract terms and conditions, the scope of work, or the basis
     for compensation. The DPW accepted and paid whatever the contractors billed for
  equipment usage without an established compensation plan or details on the amount
  of debris removed.

  Pursuant to Federal regulation (44 CFR 206.204), OMB submitted, on behalf of the
  DPW, a request for FEMA to fund the $684,751 cost overrun. However, FEMA
  responded that sufficient justification was not provided to make a final determination.
  In view of the DPW poor contracting and cost control practice, and because there was
  no documentation to demonstrate that the $684,75 1 in excess of the approved cost
  estimate was necessary and reasonable as required by regulation, the OIG questions
  that amount, as follows:


                              Amount                 Amount                 Excess
              Proi ect       Awarded                 Claimed               Char~es
              77228          $ 96,620               $ 98,680               $ 2,060
              54830           108,080                  323,728              21 5,648
              55529           438,289                  905,332              467.043
                                                    $1,327.740            $68_4.751



C. Unsupported Charges. Federal regulation (44 CFR 13.20) requires subgrantees to
   maintain supporting documentation for all charges under FEMA projects. However,
   DPW's claim included $77,209 of contract charges that were not supported by
   adequate documentation.

   DPW hired several contractors under Project 77492 to install roof tarps on damaged
   homes located on all three islands. The contracts required the contractors to provide
   daily logs of tarp material used and right-of entry forms signed by homeowners and
   certified by inspectors that work had been completed. The contracts also stated that
   payment would not be made unless the completed right-of-entry forms were
   submitted. However, the OIG determined that forms were not available for $77,209
   of payments. Therefore, the OIG questions these charges.


D. Duplicate Charges. DPW claim included $52,502 of duplicate charges for roof tarp
   installation.

    The Department paid $1,714,876 to several contractors hired to install tarpg. The
    written contracts specified that compensation would be based on the satisfactory
    performance of the services by the contractors. However, contrary to contract terms,
    the OIG found that several contractors were paid, in full, $34,097 for work on several
    homes that were not satisfactorily completed. As a result, the DPW had to pay other
    contractors $38,444 to reinstall the tarps on the same homes. Therefore, the OIG
    questions duplicate charges of $34,097.
The 0 1 6 also found that several contractors billed twice for work performed on
several homes, and the DPW paid and claimed these duplicate charges of $18,405.
Therefore, this amount is also questioned.


                              RECOMMENDATIONS

The OIG recommends that the Regional Director, in coordination with the OMB:

1. Instruct the Department of Finance to make the necessary adjustments to
   accurately reflect the receipt of federal funds under FEMA projects;

2. Instruct the Department of Finance to coordinate their accounting efforts with the
   OMB and ensure that records on the receipts of federal funds are timely and
   appropriately reconciled;

3. Instruct the Department of Public Works to comply with applicable procurement
   requirements when implementing FEMA projects in the future; and

4. Disallow the $8 14,462 of questioned costs.


        DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

The 016 discussed the results of the audit with OMB and the DPW officials on
December 10,2003. DPW officials generally concurred with the findings but
indicated that an attempt would be made to support questioned costs.

Please advise the Atlanta Field Office-Audit Division by May 06, 2004, of the actions
taken to implement the OIG recommendations. Should you have questions
concerning this report, please contact me at (770) 220-5242.
                                                           Exhibit

              V.I. Department of Public Works
              FEMA Disaster No. 1126-DR-VI
          Schedule of Claimed and Questioned Costs
                       Large Projects

Project        Amount                Amount           Amount
Number         Awarded              Claimed          Questioned
77228         $ 96,620             $ 98,680          $ 2,060
54830            108,080              323,728         215,648
55529            438,289              905,332         467,043
77492          1,714,876            1,714,876         129,711
Total         $2,357.865           $3.042.616        $8 14.462
